<html>
<title> - TUNISIA'S STRUGGLE FOR STABILITY, SECURITY, AND DEMOCRACY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


       TUNISIA'S STRUGGLE FOR STABILITY, SECURITY, AND DEMOCRACY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 25, 2016

                               __________

                           Serial No. 114-193

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ____________
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
20-258PDF                      WASHINGTON : 2016                          
                                 
                                 
________________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d3b4a3bc93b0a6a0a7bbb6bfa3fdb0bcbefd">[email&#160;protected]</a>  
                               
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. John Desrocher, Deputy Assistant Secretary for Egypt and 
  Maghreb Affairs, Bureau of Near Eastern Affairs, U.S. 
  Department of State............................................     5
Ms. Maria Longi, Deputy Assistant Administrator, Bureau for the 
  Middle East, U.S. Agency for International Development.........    12

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. John Desrocher: Prepared statement...........................     8
Ms. Maria Longi: Prepared statement..............................    14

                                APPENDIX

Hearing notice...................................................    30
Hearing minutes..................................................    31

 
       TUNISIA'S STRUGGLE FOR STABILITY, SECURITY, AND DEMOCRACY

                              ----------                              


                        WEDNESDAY, MAY 25, 2016

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:37 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and Ranking Member Deutch for 5 
minutes, each, for our opening statements, I will then 
recognize other members seeking recognition for 1 minute.
    We will then hear from our witnesses. And without 
objection, the witnesses' prepared statements will be made a 
part of the record, and members may have 5 days to insert 
statements and questions for the record subject to the length 
limitations in the rules.
    The chair now recognizes herself for 5 minutes.
    Since 2011, Tunisians have made tremendous strides in 
overcoming decades of crippling authoritarian rule. Multiple 
free and fair elections, a modern constitution that enshrines 
women's rights, a rapidly opening space for freedom of the 
press, and a rare commitment by Tunisia's major political 
parties to negotiate and find mutually acceptable middle ground 
so that the democratic transition can continue. These are all 
remarkable achievements worthy of praise and admiration by 
Tunisians and outsiders alike.
    But for many Tunisians, the transition is not happening 
nearly as fast as we would have imagined 5 years ago, as they 
are increasingly disappointed by what is seen as slow progress. 
Unemployment rates are high, especially for Tunisian youth and 
for women, and public administration and democracy are still 
mired by corruption, delays, and competing interests that too 
often prevent projects from being implemented.
    The current government has made a lot of economic progress 
for which it deserves a great deal of credit, including passing 
major banking and investment laws which will go a long way in 
eventually spurring foreign direct investment and job creation.
    However, getting that message out and informing the 
population about the government's achievements is an enormous 
challenge on its own. Tunisia's minimally staffed legislature 
does not have the necessary resources to connect with 
constituents to explain their efforts, especially to those in 
the interior.
    And the central government's outreach problems are 
indicative of the challenges ahead for Tunisia's announced 
municipal elections in March next year.
    Among many issues that need to be solved, the cabinet and 
the legislature still need to figure out how Tunisia will be 
divided into municipalities, and there is resistance at all 
levels to giving up central power.
    While people see decentralization as a panacea, there is a 
lack of understanding about why the process is important, about 
the challenges it would create, and about what kinds of 
services should be expected from the newly empowered municipal 
leaders. All of these discussions are taking place in an 
increasingly challenging security environment, placing 
additional pressure on the government to succeed.
    Terrorist attacks in 2015 cut Tunisia's tourism revenue in 
half, and the sector has still not recovered with many local 
hotels along the beach sitting empty.
    In March, the Tunisian military successfully fought off 
ISIS as it attempted to overtake a southern city along the 
Libyan border. And earlier this month, Tunisian security forces 
again foiled an ISIS plot, killing four, and arresting 16 
others, and just last week took out another top leader of the 
Tunisian ISIS affiliate. These successes are encouraging, and 
they are evidence of the security sector's growing capacity, a 
development which should be welcomed by this administration.
    The Tunisian security forces are proving themselves to be 
professional and capable partners that the United States can 
rely on to help fight extremism, to help push back against 
ISIS, and to assist other regional partners to face down the 
same threats. Tunisia is facing a dangerous and persistent 
terrorist threat from within and without, especially through 
the porous Libyan border, along the Algerian border, and from 
returning foreign fighters of which some estimates place at 
around 6,500 Tunisians. We need to be strengthening our 
security cooperation with Tunisia, including helping it to 
fight violent extremism, investing more in law enforcement 
through our INCLE programs, and assisting more with border 
security like we saw with the recent contract for equipment and 
training for a border surveillance system. So many of these 
security, political, and economic issues are intertwined and 
reinforcing of each other, that it is essential that the United 
States and Tunisia's international partners remain fully 
committed to Tunisia on all fronts.
    I was disappointed to see the administration request almost 
$20 million less in FMF funds for Tunisia this year, funds for 
which there is a clear need and would go a long way toward 
helping Tunisia remain stable.
    Similarly, I was disappointed to see only a modest request 
for ESF funds. There is a lot more that this administration can 
be doing, especially with technical assistance, helping making 
the structural reforms necessary to encourage investment and 
entrepreneurship, and with helping promote commerce, tourism, 
and trade with the United States and other partners.
    Tunisia is ready and willing to accept our assistance, and 
there is no shortage of partners who stand ready and able to 
program any help that we can provide.
    Tunisia is a country whose democratic, economic, and 
security successes are vital to our own interests. And despite 
the many challenges, it is overflowing with opportunity in an 
increasingly troubled region of the world. We cannot afford to 
be turning away, diverting our attention, or scaling back our 
engagement, and I encourage our administration to make Tunisia 
the priority that it warrants.
    With that, I am so pleased to recognize the ranking member, 
my good friend, Congressman Ted Deutch of Florida.
    Mr. Deutch. Thank you very much, Madam Chairman.
    And thanks to our witnesses for appearing here today.
    I know that this administration is committed to success of 
Tunisia, as are the members of this subcommittee. And I look 
forward to hearing how our policies and our systems are working 
toward that goal.
    Five years have now passed since Tunisia's Jasmine 
revolution shook the region, and it's been clear that Tunisians 
want to see their nascent democracy thrive. Tunisia's leaders, 
while motivated in governing have difficult steps to take to 
undo decades of authoritarian rule. Unfortunately, slow 
progress has led to increasing disillusionment among Tunisians.
    A region in turmoil has plunged this once relatively stable 
country into a security crisis that has affected its ability to 
bring about much needed economic growth. Youth unemployment is 
estimated to be over 30 percent, and the lack of job 
opportunities is frustrating Tunisia's young educated 
population, the very same demographic that drove the Jasmine 
Revolution.
    In a recent poll, less than a third said that they believe 
the government is doing a good job addressing the country's 
problems. But hope is not lost, because the same poll found 
that 86 percent of Tunisians surveyed, still believes that 
democracy is the best form of governance.
    Last week, Tunisia was granted nearly $8 billion in 
financing to help revise the economy, including a $2.8 billion 
4-year emergency IMF loan, contingent on economic reforms to 
help increase employment opportunities and strengthen public 
institutions and a $5 billion World Bank loan to help bring 
about growth and create jobs.
    The United States has invested heavily in bringing economic 
growth to Tunisia. The U.S.-Tunisia strategic dialogue most 
recently met in November 2015 and focused on economic 
opportunity, increasing trade, and strengthening partnerships 
and security cooperation.
    I hope that we will see a follow-up meeting scheduled for 
this year. The Tunisia American Enterprise Fund aimed at 
bringing business and investments back to Tunisia has ceded $60 
million since 2013. And the recent meeting of the U.S.-Tunisia 
joint economic commission has focused specifically on the ag or 
food sector, small and medium enterprises and information 
technology.
    Unfortunately, an unstable security situation will not draw 
the new significant foreign investment that Tunisia badly 
needs. The horrific attacks on the Bardo Museum in Tunis and in 
Ben Guerdane have shaken Tunisian society and have dramatically 
decreased the foreign tourism that used to fuel the economy. 
The deteriorating situation in Libya, has had, and will 
continue to have, a dramatic impact on Tunisia as well.
    Libya has served as home base to several of Tunisia's 
attackers. Tunisian forces, with the help of U.S. assistance, 
have stepped up efforts to control the border of Libya, and 
much of our assistance to Tunisia is now focused on 
counterterrorism.
    If the decision is made for U.S. and coalition forces to go 
after ISIS in Libya, what effect will this have on Tunisia, 
which has so far sent a large contingent of foreign fighters to 
train with ISIS.
    According to a recent Washington Post article, a strike in 
Libya killed 41 militants most of whom were Tunisians, just 
weeks before the attacks on Ben Guerdane. I am concerned that 
without greater prospects for employment, more young Tunisians 
will be drawn to ISIS' steady paycheck. And bringing about this 
kind of real change will take political will.
    Thus far, Tunisia has faired well in transition of power 
with the country's leaders uniting for the good of the country. 
President Essebsi and his secular coalition joined with the 
Islamist Ennahda to form a unity government that has seen some 
moderate success in pushing through economic reforms, but 
progress on many other needed reforms has been slow.
    In a recent surprising turn of events, last week, Ennahda 
announced the decision to separate religion from politics. As 
one media report put it, Ennahda's reform appear to try to 
distinguish itself in a region where political Islam has 
suffered setbacks. This, coupled with Tunisia's progressive by 
regional standards constitution bode well for the civility of 
the government.
    The U.S. should continue to support programs that help 
improve good governance and streamline much of the bureaucracy 
left over from the Ben Ali era, and while I am heartened by 
this government's continued focus on transparency and 
accountability, I remain concerned about human rights abuses 
including those carried out by security forces. I also hope 
that we are using the voice of the United States Government to 
push for equal protection for the LGBT community, which has 
faced increasingly brutal persecution.
    There are no shortage of challenges facing Tunisia, and we 
must be clear-eyed about the ability to successfully address 
them. But there at least seems to be willingness in the 
government to confront them, albeit slowly. And how can the 
U.S. most effectively support these reform efforts? How can we 
utilize our assistance to show the people of Tunisia that they 
should still have hope?
    These are the questions that I look forward to discussing. 
I appreciate the administration's continued commitment to 
Tunisia, and I look forward to productive discussion today.
    Thank you.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    Ms. Frankel.
    Ms. Frankel. Madam Chair, I will wait until my turn.
    Ms. Ros-Lehtinen. Seeing no further request for time, it is 
my pleasure now to introduce our witnesses.
    First, Mr. John Desrocher? Pretty good? Thank you. Who is 
deputy assistant secretary for Egypt and Maghreb Affairs for 
the State Department's Bureau of Near Eastern Affairs. Prior to 
this, he served as deputy chief of mission at the U.S. Embassy 
in Baghdad. He has also served in New Zealand, Egypt, Israel, 
Liberia, and Germany. Welcome, Mr. Desrocher.
    Next, we welcome Ms. Maria Longi. USAID's deputy assistant 
administrator for the Middle East. Prior to this, Ms. Longi 
served in various positions with the State Department and also 
worked at the millennium challenge cooperation as its director 
for threshold programs in several developing countries.
    Welcome, Ms. Longi. We are pleased to have both of you here 
today. We thank you, both, for your service to our country. 
Your prepared statements will be made a part of the record.
    And, Mr. Desrocher, we will begin with you.

STATEMENT OF MR. JOHN DESROCHER, DEPUTY ASSISTANT SECRETARY FOR 
EGYPT AND MAGHREB AFFAIRS, BUREAU OF NEAR EASTERN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Desrocher. Chairman Ros-Lehtinen, Ranking Member 
Deutch, members of the committee, I am honored to appear before 
you today to discuss our relations with the Republic of 
Tunisia.
    It is a pleasure to share this table with my talented 
friend and colleague, Maria Longi, USAID's deputy assistant 
administrator for the Middle East.
    Tunisia's 2011 revolution sparked the Arab Spring or Arab 
Awakening, which continues to reverberate throughout the 
region. While other countries have struggled with their 
transitions, Tunisia has emerged with a nascent yet stable 
democratic government. Tunisians have a constitution widely 
hailed as one of the most progressive in the Middle East, and 
they have conducted two sets of transparent and credible 
elections.
    I am happy to report that the Tunisian-American partnership 
continues to deepen and mature as we confront shared security 
challenges, build sustainable economic growth that benefits 
both nations, and build strong democratic inclusive tradition 
that serves as a model for the region.
    Tunisia is a reliable partner, and we can make it stronger 
if we continue to show our support.
    Tunisia continues to face considerable challenges. Between 
3,000 and 6,000 Tunisians have joined extremist groups abroad, 
and the horrific attacks of 2015 underline the very real threat 
that extremists pose to Tunisia. We cannot address security 
challenges in Tunisia without discussing Libyan instability. 
The attackers in the Bardo and Sousse attacks received training 
in Libyan terrorist camps, and there are between 250,000 and 1 
million Libyans currently displaced from their own country and 
living in Tunisia. Without a permanent political solution to 
the ongoing strife in Libya, Tunisia will continue to face real 
and persistent security challenges from across the border.
    Our assistance funding is helping the Tunisian security 
services develop a more agile security forces that respect 
human rights and democratic principles. Tunisia has used the 
United States as a principal partner in its efforts to 
strengthen military and civil police authorities. Our support 
will enhance security forces' capacity to counter threats from 
internal and external groups, monitor Tunisia's borders, 
communicate, and coordinate internally more effectively, and 
combat terrorists in diverse environments.
    Our support also helps the civilian criminal justice sector 
improve respect for the rule of law and promote citizens 
security and access to justice across Tunisia.
    Additionally, in 2015, President Obama designated Tunisia a 
major non-NATO ally in recognition of our shared values and 
Tunisia's strategic importance as a democratic success and 
critical line of defense against instability.
    Tunisia continues to develop long neglected government 
institutions, or practices of the old regime linger. We are 
concerned about reports of corruption at all levels of 
government. Tunisia's big 10 government moves slowly. The 
ongoing disputes in the key party of the governing coalition 
has slowed decision further and reforms do not come as quickly 
as we would like.
    But Tunisian officials rightly take pride in their 
country's exemplary efforts to promote the rule of law, 
transparency, and accountability, reform its security sector, 
and reinforce principles of democratic governance. Tunisians 
across the spectrum of society recognize that human rights 
abuses and corruption must be addressed and actively seek ways 
to create change. In recognition of the important role of civil 
society in advancing reform, Tunisia has joined the open 
government partnership and is partnering with civil society to 
promote transparency, accountability and participation in 
government.
    Senior government officials are working to address 
challenges and repeatedly voice their commitment to reform.
    More needs to be done on all of these fronts, but 
establishing transparency and accountability mechanisms and a 
culture of zero tolerance of corruption will take time.
    Tunisia's faltering economy compounds the challenges facing 
the Tunisian Government. GDP growth in 2015 was anemic at 0.08 
percent. Last year's terrorist attacks devastated the tourism 
industry, unemployment is over 15 percent, and twice as high as 
that for recent graduates, those living in the interior of the 
country, and for women.
    Despite these difficulties, the Tunisian Government has 
made meaningful progress on economic reforms. They have already 
passed public-private partnership, bankruptcy, and banking 
laws, among others. I am optimistic that Tunisians will pass 
the new investment code this summer. Such reforms are laying 
the groundwork for increased investment trade and private 
sector engagement between the United States and Tunisia.
    As Tunisians move forward on reforms to take steps to 
provide economic opportunity, they are holding fast to their 
democratic ideals. The full range of political actors, 
including political Islamists, are working together 
constructively to build Tunisia's democratic traditions.
    Our investments in Tunisia have been rewarded by the steady 
development of inclusive governance institutions and processes, 
increased stability and security, and great strides toward 
financial sustainability. As a strategic partner and powerful 
example of a successful Arab democracy, Tunisians still need 
and want our support.
    The development of a fully functioning and transparent 
democracy will take time and patience as Tunisians' leaders 
strengthen their institutions. With the help of Congress and 
our interagency colleagues, we will continue our work to build 
an even stronger partner in a volatile region.
    I want to thank you, again, for the opportunity to testify, 
and I look forward to answering any questions you might have. 
Thank you very much.
    [The prepared statement of Mr. Desrocher follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Mr. Desrocher.
    And now we will turn to Ms. Longi.

 STATEMENT OF MS. MARIA LONGI, DEPUTY ASSISTANT ADMINISTRATOR, 
   BUREAU FOR THE MIDDLE EAST, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Longi. Thank you.
    Chairman Ros-Lehtinen, Ranking Member Deutch, and members 
of the subcommittee, thank you for the opportunity to discuss 
U.S. assistance to Tunisia and our partnership with the 
Tunisian people as they work for a stable democracy and 
economic prosperity.
    We agree with Chairman Royce's recent assertion that 
Tunisia represents hope for democracy, peace, and security in 
the Middle East and North Africa. U.S. assistance serves as an 
important demonstration of our commitment to Tunisians as they 
work to consolidate reforms. We recognize that the 2011 
revolution was sparked by the Tunisian people's frustrations 
with the stifling of political discourse, a corrupt economic 
environment, and a predatory security apparatus.
    I would like to talk briefly about how the U.S. Government 
quickly and effectively responded to support Tunisia's 
aspirations for change, describe what we are doing in Tunisia 
today, and outline how we plan to scale up our support for the 
democratic transition and economic reforms.
    Since 2011, USAID has provided approximately $300 million 
to support Tunisia's economic growth and democratic transition. 
This includes two sovereign loan guarantees that provided 
access to $985 million in financing, and helped support 
Tunisia's efforts to reform and grow its economy.
    In the fall of 2011, the United States provided assistance 
to organizations in Tunisia that were organizing and 
administering multi-party elections for a Constituent Assembly 
charged with drafting a new constitution. Among our activities, 
we were able to connect U.S. Supreme Court Justices Stephen 
Breyer and Ruth Bader Ginsburg with members of the Constituent 
Assembly, political party representatives, and Tunisian legal 
scholars. This and other real practical engagements with 
emerging Tunisian leaders and civil society immediately after 
the revolution helped us to identify areas we could help going 
forward.
    Another major area of U.S. engagement in Tunisia centers 
around its struggling economy. Through careful analysis, we 
identified significant constraints to job creation and economic 
growth in Tunisia, which we are working to address in many 
ways, including helping Tunisian firms unlock opportunities for 
growth and supporting job creation, training young 
entrepreneurs in marginalized areas, and providing technical 
assistance to Tunisia's Government as it drafts and implements 
laws to improve the investment climate and encourage private 
sector development.
    These efforts have the immediate benefit of educating and 
employing Tunisia's youth to ensure a better future for them. 
As an example of how our work is directly responding to the 
needs of aspiring Tunisian workers, I would like to highlight a 
program for training Tunisian entrepreneurs in marginalized 
areas, primarily those close to Tunisia's borders with Algeria 
and Libya. This is a partnership with Hewlett Packard, the 
United Nation's Industrial Development Organization, and the 
Government of Italy, where USAID leveraged our resources to 
bring online entrepreneurship training for 12,000 Tunisians. 
More than 1,600 Tunisians have found new employment through 
this activity.
    Among these entrepreneurs is Anis Assali, a young man who 
spent 14 months unable to find a job in the capital, Tunis, 
after earning a degree in aerospace engineering from the 
University of Tunis. He returned to his hometown in western 
Tunisia and decided to create his own employment by starting a 
business selling and installing solar panels. USAID-backed 
programs supported him with training and marketing and 
identifying reliable partners. His business has now grown from 
solar electricity to include solar water heating.
    Another USAID program is working with businesses like Nozha 
Dates, based 300 miles southwest of Tunis. Nozha traditionally 
sold to an export company that wanted to develop direct export 
capabilities. USAID helped the company improve its standards, 
which enabled it to hire 55 new employees for its direct export 
business. All in all, USAID's programs in Tunisia have helped 
create more than 14,000 new jobs in 2 years alone and we are on 
track to create even more jobs by this time next year.
    Thanks to the support of Congress, USAID's assistance is 
addressing targeted areas where U.S. and Tunisian partnerships 
can have the most impact. Our economic growth activities will 
continue to focus on employment through a firm level approach 
that helps firms identify and overcome internal blockages to 
growth, while also working with the Government of Tunisia to 
reform critical policies, regulations, and processes to limit 
the competitiveness of Tunisian businesses.
    The U.S. will work to strengthen local governance capacity, 
placing a special emphasis on marginalized communities and 
underserved governorates and localities. Our programs will aim 
to provide citizens groups and civil society organizations with 
advocacy and outreach skills to articulate community 
priorities.
    Right now, we have highly skilled technical teams in 
Tunisia consulting with key stakeholders to design targeted and 
strategic programs that will support Tunisia's democratic and 
economic transition. As we know well, the transition to a more 
democratic society and a more open and inclusive economic 
environment can be rocky and can move at intermittent speeds. 
Tunisia has made impressive strides in the past 5 years, and we 
recognize that there are a still long way to go.
    With the support of Congress, USAID hopes to do even more 
to partner with Tunisia in its transition, working hand in hand 
with the Tunisian people to fulfill their aspirations. A 
successful Tunisia benefits the Tunisian people, the region, 
and the United States.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Longi follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much for great testimony.
    We will begin the question-and-answer period.
    As both of you have stated, seeing Tunisia's democratic 
transition through is critical to U.S. interests and regional 
stability. But because of a modest budget request and other 
issues vying for attention, it may appear as though the 
administration doesn't view Tunisia as one of its top 
priorities.
    While the administration's Fiscal Year 2017 request for 
Tunisia represents a slight increase over the prior years, the 
ESF request is for $74 million, $20 million of which is for the 
Enterprise Fund, and the FMF request is $45 million, which is 
$20 million less than last year.
    So many of the challenges in Tunisia are interdependent, 
and I fear that what will happen if the government can't show 
the people that it can provide security while simultaneously 
growing the economy and expanding political inclusion could be 
a recipe for disaster.
    So I ask, why aren't we doing more to promote democracy and 
governance and to contribute to the country's badly needed 
economic growth? Why was the FMF request for Tunisia reduced 
for the upcoming fiscal year? And what is the status of 
military equipment requested by Tunisia? Is there anything 
being held up?
    Mr. Desrocher. Thank you very much for your question.
    Obviously, we are and remain extremely supportive and this 
administration is very supportive of Tunisia and Tunisian's 
efforts to build their democracy. And we have a robust 
interaction across many areas. Obviously, the assistance 
programs that we have talked about, but it goes beyond 
assistance to our governmental interactions and our 
interactions with the private sector.
    We, of course, President Caid Essebsi was here last year to 
see President Obama, and Secretary Kerry was in Tunisia last 
fall for the strategic dialogue. We also have the joint 
economic committee, which has done a great deal to address the 
barriers to interactions and trade between our two private 
sectors. We have a joint military commission that deals with 
our military assistance issues, and we recently had very useful 
trade and investment framework agreement discussions about 
trade issues particularly in Tunisia.
    On the assistance side, we have crafted our assistance 
program very carefully. We think it meets the requirements that 
Tunisia has. We think it is robust, and we will continue to 
have a robust program going forward.
    We are moving forward with our military assistance across a 
broad range of areas designed to increase Tunisian security 
services' mobility, their surveillance capabilities, their 
border security capabilities, and we think that is very 
successful. We are moving forward on different aspects of 
military assistance very well and feel very positive about 
that. And we also have, you know, robust ESF programs that 
Maria has outlined, and you know, we feel confident that we 
have built an assistance program for Tunisia that matches its 
needs.
    Ms. Ros-Lehtinen. Thank you.
    Ms. Longi. I will also say that the increase that we saw in 
Fiscal Year 2016 has prompted us to go out and design some 
really robust and new democracy programs. And so as I have 
mentioned, our teams are in the field right now designing 
those, and they will address some of the issues that you 
raised, Chairman, on the local governance and the 
decentralization and the empowerment of youth.
    And so we are excited to get those designs completed and 
entrained, and I guess time will tell how much more we can 
absorb on that front. But we are moving forward robustly on 
expanding.
    Ms. Ros-Lehtinen. Thank you to both.
    On the Tunisian American Enterprise Fund, it was 
established to respond to an urgent need for investment and job 
creation in Tunisia, but there is some questions surrounding 
its effectiveness.
    How many projects has the Enterprise Fund implemented so 
far? How many jobs has it helped to create? And what barometers 
do you use to measure the success of the fund?
    Ms. Longi. Yes. So the Enterprise Fund was created almost 3 
years ago, and they did make their first investments about, 
almost 2 years in, which is--from what I understand, it is 
pretty commensurate with prior investment funds. They did have 
to figure out how to work in the complex legal and regulatory 
environment, which is as we have mentioned is changing and 
improving. So that was part of their start.
    They have invested about $10 million to date in about five 
or six companies, and our most recent discussions with the fund 
tells us that they have about $45 million in projects that they 
are doing due diligence on right now, and they have told us 
that those are very, very promising projects. And so we expect 
to see a lot more investments this year and next as they get 
through the due diligence.
    I think as far as what would be successful, the goal of the 
Enterprise Fund is to create a robust private sector and help 
the SME sector and on lending to micro finance. And so as they 
make more investments, those will be the types of things that 
we are monitoring. I am not clear yet on the jobs created. We 
can go back and bring you some information on that. I would 
assume that it is probably not too high yet with the five 
companies, but we can get back to you on that one.
    [The information referred to follows:]
Written Response Received from Ms. Maria Longi to Question Asked During 
            the Hearing by the Honorable Ileana Ros-Lehtinen
    According to TAEF's Monitoring and Evaluation annual report, in 
calendar year 2015 TAEF created 524 jobs.

    Ms. Ros-Lehtinen. Thank you very much. And I also would 
like to point out that we have the Tunisian Ambassador to the 
United States with us, a good friend of this subcommittee.
    Welcome, sir.
    And with that, I am very pleased to yield to my good 
friend, Mr. Deutch, for his time.
    Mr. Deutch. Thanks, Madam Chair.
    Mr. Desrocher, last week the head of Ennahda said we are 
leaving political Islam to enter Muslim democracy. We are 
Muslim democrats who no longer claim political Islam. Two 
questions. One, what are the implications for Tunisian 
democracy? And, two, does the statement have broader 
implications for the future of political Islam in the Middle 
East?
    Mr. Desrocher. Thank you very much for the question.
    Regarding Ennahda, the Ennahda party has played a very 
constructive role in the development of Tunisia's democracy 
since the revolution in 2011. They have played actively in the 
political sphere consistently, continuously since then. They 
have worked well with the rest of the Tunisian leadership in 
this very consensus-based approach that Tunisian leaders have 
taken to building their democracy. We think that is very 
laudable. Ennahda stepped back, last year, during a difficult 
period in Tunisia in favor of a caretaker government in advance 
of the national elections that were held last fall. Ennahda 
participated in those and is in Parliament and is also in the 
current cabinet and continues to participate very 
constructively.
    As far as the announcements that you mentioned, you know, 
as you noted and as the leadership of Ennahda has said 
publicly, they are taking the step to draw distinction between 
political activities and between, you know, religious and 
cultural and civic activities.
    What that will mean in practice I think that, you know, we 
will see going forward. But, certainly, Ennahda's track record 
suggests that they have up until now and we certainly, you 
know, think they will continue to play a very--make a very 
productive and useful contribution to the building of 
Tunisian's democracy.
    Mr. Deutch. Thank you. And, Mr. Desrocher, just to stick 
with you for a second, homosexuality remains a crime in 
Tunisia, punishable by up to 3 years in prison. Some LGBT 
defenders have accused the police of being complicit in crimes 
against the community. This is seemingly in congress with 
Tunisia's values of pluralism and tolerance. And I just wonder 
whether this intolerance might alienate potential investors, 
whether it might challenge Tunisia's economic recovery?
    Mr. Desrocher. That is something that concerns us as well. 
For many reasons, including, as you say, you know, it is not 
consistent with Tunisia's desire to create a welcoming 
environment for the investment that it so badly needs. This is 
a topic that we are in continuous contact with Tunisian 
counterparts about and also with Tunisians themselves. Our 
Embassy is in regular touch with advocacy groups that are 
concerned about these issues and it is something that we are 
concerned about and that we address with our Tunisian 
counterparts at every opportunity.
    Mr. Deutch. Great. I appreciate that.
    Ms. Longi, I was struck, and I think perhaps a lot of us 
don't think enough about the Libyan refugee issue. The number 
is somewhere between, I think \1/4\ million and up to 1 million 
displaced Libyans in Tunisia. What is being done to assist 
them? How does the government--I guess this is for both of you. 
But has the government approached this issue and what impact 
does it have on economic growth within Tunisia?
    Ms. Longi. USAID has not addressed the Libyan refugee issue 
specifically, and so I am going to punt.
    Mr. Desrocher. Certainly. You know, the influx of Libyans 
into Tunisia has certainly put a strain on, you know, the 
availability of housing, the Tunisian medical system, and so 
on, which I have to say, Tunisians have reacted extraordinarily 
admirably and supportively to this influx of refugees from 
Libya.
    But it is something that is causing a strain. And really, 
you know, what, of course, we really need to do is redouble our 
efforts with Libyans, with our partners in the international 
community, to strengthen a unity government in Libya and to 
restore some stability there so that, you know, Tunisia is not 
put in the position of having to host this really considerable 
number of people.
    Mr. Deutch. All right. Thank you, both.
    I yield back my time.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    Mr. Weber of Texas.
    Mr. Weber. Thank you, Madam Chair.
    Gosh, I am learning some things about Tunisia here today. 
The population of Tunisia, I guess, is only----
    Mr. Desrocher. About 11 million.
    Mr. Weber. About 11 million. How many square miles?
    Mr. Desrocher. I am sorry. I am not real good at that kind 
of geography. Sorry.
    Mr. Weber. Okay. But it can't be bigger than Texas, right? 
Nothing is bigger----
    Mr. Desrocher. No. For the record, nothing is bigger than 
Texas.
    Mr. Weber. I just want to make sure. So according to my 
notes, President Obama designated it as a major non-NATO ally. 
How many major, or non-NATO allies do we currently have? Do you 
know?
    Mr. Desrocher. I would have to go back to be certain. I 
think it is--boy, you know, instead of speculating, I will go 
back and check. It is in the realm of a dozen or so, perhaps, 
slightly more. But let me get back to you.
    Mr. Weber. So how many NATO allies?
    Mr. Desrocher. 28 members of NATO.
    Mr. Weber. So 28 members of NATO, and we have about--and we 
have designated about--or the President has, or at least at 
this point there is a dozen non-NATO allies?
    Mr. Desrocher. Let me get back and make sure I know the 
numbers there, because they are spread all over the world.
    Mr. Weber. Okay. So I notice we are doing some things. We 
are helping them with arms sales. How do we make sure the arms 
don't fall into the wrong--one of you said, and I don't want to 
put words--there was 3,000 to 6,000 Tunisians joined extremist 
groups? Is that right?
    Mr. Desrocher. The estimate is that roughly that number 
have left Tunisia to join Daesh and other extremist groups 
primarily in Iraq and Syria.
    Mr. Weber. Is that from 2011 on?
    Mr. Desrocher. Yeah. That would be over the past years. 
Yes, that is right.
    Mr. Weber. Okay. But starting with the quote/unquote----
    Mr. Desrocher. Yes. Yes.
    Mr. Weber. Okay. You said there are 11 million. So 6,000--
3,000 to 6,000 have joined.
    How are we making sure that the arms that we are helping 
Tunisia with don't fall into the wrong hands?
    Mr. Desrocher. Well, we have got, you know, very robust and 
close relations with our compatriots--with our counterparts, I 
should say, in the Tunisian security sector. And we are helping 
with lots of training. We are helping with material, 
particularly that helps in regards as far as mobility and 
border security and surveillance and so on.
    And generally, as a rule, these foreign fighters are 
leaving the country in dribs and drabs through commercial means 
by various routes to get to Iraq and Syria. Meaning they are 
not really in a position to take things with them 
unfortunately.
    Mr. Weber. Which leads me to my next--is it--how do you say 
your name? Is it----
    Mr. Desrocher. Desrocher.
    Mr. Weber. Desrocher. Mr. Desrocher, are any of the 
political leaders leaving the country? Are they identifiable as 
part of the that 3,000 to 6,000 route? Any notable defections 
so to speak?
    Mr. Desrocher. No. No. Not at all. These are young men, you 
know, generally from pretty challenged backgrounds who, you 
know, as I think a couple of the speakers have noted today, 
have been pulled in by some of this propaganda that we all see 
regarding ISIL and its goals. But this is--no, it is not a 
leadership issue in that sense.
    Mr. Weber. Okay. And then, is it Longi? Is that how you say 
that?
    Ms. Longi. Longi.
    Mr. Weber. Ms. Longi, you said earlier that your team is 
going out to design, and I think I am quoting you now, real 
robust democracy programs or something to that effect. How do 
you define a real robust democracy program? Tell us about that.
    Ms. Longi. Well, with the increased funding that we 
received in Fiscal Year 2016, real and robust. So we are 
looking at the needs on the ground and consulting with 
stakeholders. The areas where we are most likely to engage are 
on the decentralization in the local government, reforms that 
were enshrined in the new constitution. And so we are going to 
be collaborating with the World Bank, part of the World Bank 
program that was reference earlier. We will do work in this 
area and we will try to plug in where we can have an impact 
there.
    Some of the other areas where we will work is with these 
new and stronger local governments, working with them on public 
financial management so----
    Mr. Weber. Forgive the interruption. But when you say new 
local governments, states, counties, cities? How do you define 
those?
    Ms. Longi. The municipalities.
    Mr. Weber. Municipalities.
    Ms. Longi. They are defined as municipalities. Right. And 
so the constitution enshrine that they will now have elected 
officials. And so those elections are slated for early 2017 or 
some time in 2017. So right now we are working with our State 
Department colleagues, our Embassy, other donors in the field 
to decide how we as the international community can help 
support and help the Tunisians make this transition 
decentralization a success. And so that is going to be a big 
push over the next year for our assistance as well as for the 
Tunisians as they work on this.
    Another piece of that is to work with citizens, and civil 
society, and the private sector, on how to work with these new 
decentralized communities.
    Mr. Weber. Let's go back to what you are just now saying. 
You said you met with the stakeholders. You are talking about 
citizens, private sectors, NGOs? Can you name four or five 
different groups of stakeholders?
    Ms. Longi. Sure. NGOs, other civil society groups, private 
businesses that work in these areas, investors from abroad, 
investors from within Tunisia. So there is a lot of groups.
    Mr. Weber. Okay. And then one final question, if I may, 
Madam Chairman. I am going to run over just a second here. 
According to my notes, there was a lot of opposition, I guess 
as they were making a political transition. It says such as 
trade--from trade unions. What kind of trade unions? I mean, do 
they have--or is that electrical? Is that plumbing? Is that 
agricultural? Do you know?
    Mr. Desrocher. Yeah. Tunisia has a very potent trade union 
history, I guess I would say. The largest umbrella organization 
is something called the UGTT, and, in fact, the UGTT was one of 
the four members of the quartet that won the Nobel prize, the 
Nobel Peace prize, for their contribution to building the 
consensus that helped lead to this democratic revolution, this 
the post revolutionary period, the democratic governance.
    The labor unions are--have considerable weight in Tunisia, 
and they are part of this dialogue about how to reform the 
economy.
    Mr. Weber. Name the kinds of labor. That is my----
    Mr. Desrocher. Sorry?
    Mr. Weber. Name the kinds of labor, that is my specific 
question----
    Mr. Desrocher. I think it would cover all those areas, 
teachers, government employees.
    Mr. Weber. Okay. So they have robust in place of unions?
    Mr. Desrocher. Yes. Yes, they do.
    Mr. Weber. Okay, great. That is it.
    Thank you very much.
    Ms. Ros-Lehtinen. Thank you, Mr. Weber.
    Ms. Frankel.
    Ms. Frankel. Thank you, Madam Chair.
    Thank you to the witnesses for being here.
    Mr. Weber, I just want you to know, I did a Google search 
while you were asking your question. There is 16 non-NATO 
allies.
    Mr. Weber. Okay. I also did a Google search. Texas has 
268,000 square miles, and Tunisia has 63,000 square. I am just 
saying.
    Ms. Frankel. One other thing I would say to Mr. Deutch. You 
know what, when you told the results of the poll, I almost had 
to laugh only because I was thinking they would be the same 
results here in the United States of America, which is sort of 
ironic? Isn't it?
    But I just came back from Tunisia. I was there with Mr. 
Royce. It was a very enlightening experience for me. And we, of 
course, met with a very able Ambassador Rubinstein. We met with 
the President of Tunisia, their Prime Minister, Interior 
Minister, their speaker of the Parliament and some of their 
members and they actually have--Madam Chairman had quite a few 
women parliamentarians.
    We did go over to that museum, the Bardo, and we did a 
wreath ceremony. So just, you know, my impressions--I think my 
first--the good thing about going to other countries is 
actually, I find, not just going to meet with the President and 
the Prime Minister, but just the ride through whatever city you 
are in and just to see the people.
    And you know what you see is just, you know, we saw 
hundreds and hundreds of people just trying to get about in 
their business, innocent people just trying to get about in 
their business.
    And, you know what the impressions that were given to us, 
the people we spoke to was--which I will just underscore things 
you have emphasized, and some of my colleagues have is how--how 
two really bad terrorist attacks have almost devastated their 
tourism economy, the attack at the hotel, the attack at Bardo 
Museum. The hotel we stayed at which was quite lovely, there 
was nobody there. And this is the most beautiful coast in 
Tunisia.
    We also got to meet with Ambassador Bodde, who was the 
virtual Ambassador from Libya. And we were able to have some 
good discussions on, really, the interrelationship between 
Tunisia and Libya and the fear of fighters coming back and 
forth and so forth.
    And a couple of questions I had, because one of the points 
that were made, and I want to ask you about the weapons. I 
think Mr. Weber raised an issue there, was the--I thought the 
concern was about weapons that had fallen into wrong hands 
since the--in Libya rather than--is that an issue there?
    Mr. Desrocher. Well, I would say certainly, I mean, again, 
in Tunisia, control of weapons is not a tremendous concern of 
ours. Of course, like I say, we are continuously in touch with 
our Tunisian military counterparts as part of our security 
assistance program to talk about such things. But you are 
right, the weapons that were in the hands of the Qadhafi regime 
and their potential spread is something that we need to keep an 
eye on.
    Ms. Frankel. And then the other question I had, which I 
think would be important really for this hearing and for the 
public. If you could just explain why we should care about 
Tunisia and what is going on in Tunisia and Libya. What is the 
importance of that region to the United States to our security, 
the security, and to the economy of our allies?
    Mr. Desrocher. And I invite you to chime in as well.
    I think Tunisia is important to us for a number of reasons. 
The Tunisians have already built and are still building, you 
know, a very impressive democratic system in the face of great 
challenges and, you know, in the face of a history that is, you 
know, frankly, was not very supportive of democracy.
    The Egyptians are trying to make that change. As we have 
seen through so much of the world making that transition to 
democracy is a very challenging thing. And I think it is in our 
interests to support that just as a general principle, and we 
do. And, of course, that aside, Tunisia is in a difficult 
region, most importantly, it has a very challenging neighbor in 
Libya and in the unstable situation in Libya, which, you know, 
the threat from that instability in Libya could potentially 
spread more broadly, which is certainly something we don't want 
to see. And it is very much in our interests to help our 
Tunisian friends prepare and strengthen not only their 
democracy, but their economy, and their security, in a way that 
helps them be a bull worker against that instability.
    Ms. Frankel. Did you want to answer that?
    Ms. Longi. No.
    Ms. Frankel. Okay. Thank you. Madam Chair, I yield back.
    Ms. Ros-Lehtinen. Thank you, Ms. Frankel.
    Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chair. Good to seeing you. Thank 
you for being here. I find it interesting that there are 
fledging democracy that started with the Jasmine Revolution in 
2011; the Arab Spring, the whole genesis of that. And then you 
see this fledging democracy building up, and things are going--
what we would consider in the right way, and then we see the 
terrorist attacks that happened last summer and tourism is down 
90 percent, the way I understand it and its kind of just 
floundering there and people aren't really flocking to get back 
there. And they have so much prime real estate, you know, from 
an American perspective looking at that. It is a beautiful part 
of the country.
    If we look at that democracy and it is so important that we 
have a thriving democracy in there to show what liberty and 
freedoms can do. People that are striving to better their 
country like that. What have they done that is working, that we 
can learn from so that we can, you know, maybe have an 
influence or bolster that to effect, that they continue down 
that path? And what have they done that hasn't worked so that 
we don't make those mistakes when we are helping other 
countries that are fledging democracies that want to build from 
that?
    And then a third question is, how much influence has the 
Muslim Brotherhood have in that country? And then I have got a 
couple more.
    Mr. Desrocher. I would point to a couple of factors. I 
mean, fundamentally, I think, what the Tunisians have done 
right is they have been guided by a sense of consensus and by a 
sense of, despite, perhaps, differing political or economic 
approaches, the sense of a need to move together and work 
together.
    For example, I would highlight, you know, I mentioned 
before the Nobel Peace prize that was given to a quartet of 
organizations for the role they played in bringing together 
Tunisians to support the revolution. And this was a disparate 
group of people. It included both the trade union that I 
mentioned but it also the employers, an organization whose 
acronym is UTICA, which is the employers' union. And these are 
organizations that don't necessarily see eye to eye on, say, 
economic matters but definitely saw eye to eye along with their 
compatriots and the quartet, and Tunisia's political parties on 
the need to work together. And I think that we have seen that 
over the past few years as, you know, there is wide support--as 
difficult as these economic reforms are, there is wide support 
across the Tunisian political leadership for these reforms 
despite their difficulty.
    And as basically to the role of political Islam, I would 
just note again, that we have talked a bit already about the 
role that Ennahda is playing, and it is--as Mr. Deutch said, it 
made an announcement yesterday that it is splitting its civil 
and religious activities away from its political activities.
    Mr. Yoho. Right.
    Mr. Desrocher. But it remains a political party with an 
Islamic bent, but it is one that has proven itself to work 
within the political system----
    Mr. Yoho. Let me get Ms. Longi to weigh in on this. And if 
you focus on what have they done wrong that we can learn from 
that?
    Ms. Longi. What have they done wrong.
    Mr. Yoho. Is it like a security issue, you know? Do they 
have border security? Do they have to crack down harder other 
terrorist or terrorist threats? You know, if you are looking at 
that country to continue the growth of a democracy, if you--to 
look at it, what would you say they shouldn't have done this 
and we should correct this--or they should correct it. I don't 
want to help them correct their----
    Ms. Longi. Well, USAID doesn't do the border security work.
    Mr. Yoho. Okay.
    Ms. Longi. But I can say, and maybe this just gets to the 
right, but continues to be a challenge is the unemployment 
issue. Because the unemployment issue and combined with the 
security issues does create a real challenge for Tunisia to 
overcome a lot of this at once.
    And so the pace of it probably may seem slow, but if you 
look how this, you know, new vibrant democracy is working, they 
have passed some very important private--or business reform 
laws that, over time, if they keep that commitment will help 
create those private sector jobs which will balance out.
    Mr. Yoho. All right. Let me go back now to Mr. Desrocher. 
If you can tell us what they need to keep doing to bolster that 
democracy growing?
    You know, I know we need to worry about the terrorist 
threats and security and things like that. I mean, what would 
you recommend?
    Mr. Desrocher. Well, I mean, I think Maria, you know, hit 
the point on the head. I think that the challenge that Tunisia 
faces is not so much that I can't point to, say, this mistake 
or that mistake, something that a decision should be different. 
What the real challenge is that the reforms, economic in 
governance building, in law enforcement, in security that need 
to move forward are things that--take time to implement.
    And the economic situation there is challenging, the 
security situation there is challenging. And I know that 
Tunisians are moving as fast as they can, but it is really 
moving forward on those economic reforms to create jobs. Moving 
forward we are helping with reforms in the security sector so 
that they have civil police services that can enforce the law 
and enforce order while at the same time respecting civil 
rights and respecting the rule of law. Which is equally 
important.
    And I guess if I were to sum up the challenge is that, you 
know, these kinds of reforms take time, and the difficult 
situation in Tunisia, means that time is very precious.
    Mr. Yoho. Thank you.
    Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho.
    Mr. Boyle.
    Mr. Boyle. Yes, thank you, Madam Chair and Ranking Member.
    I wanted to ask you about two different issues, although 
you will I think pretty easily see the connection where I am 
going in a second.
    The first is regarding the youth unemployment rate, which 
figures for 2015 show was estimated at 30 percent, remarkably 
high.
    I was wondering to the extent that we know what is Tunisia 
doing right now to tackle this real problem?
    Ms. Longi. The passage of a lot of these foundational laws 
is one thing, because that is creating a better environment for 
the private sector to create jobs. Tunisia historically has had 
a very large public sector. And so the shift that they are 
making now is to encourage a stronger private sector where this 
job creation can actually take place, and so that is one thing.
    Another thing that we have been working--the partnerships 
that we have included partnerships with the Minister of 
Employment and the Ministry of Education, because a lot of the 
reason for the youth unemployment is the mismatch between the 
jobs that are there and that can be created and the education 
that people are getting. And so we have worked to create some 
career centers, career development centers, within the 
universities, within the vocational schools to try to make that 
match better.
    And so I think those are some of the challenges that exist 
and why the youth unemployment is so high. And we have seen 
great engagement and requests for assistance directly from 
ministers on this.
    Mr. Boyle. Well, the second question I am going to ask seem 
to be a natural flow is according to the U.N., and if you 
disagree with this, please let me know, but according to the 
U.N., there are currently 4,000 Tunisians fighting in Syria and 
about 1,500 fighting in Libya.
    So I want to know what we believe the Tunisian Government 
is doing to champ down on this and extremism? And, of course, 
we see the connection between a country with a 30-percent youth 
unemployment rate and then also the problem of extremism in 
this region.
    Ms. Longi. I can start.
    Mr. Desrocher. Go ahead.
    Ms. Longi. We have been looking at the drivers of violent 
extremism in Tunisia. USAID, State Department, the Department 
of Defense, we are trying to figure out--and the reasons the 
drivers they are very local. Sometimes it is by neighborhood 
and sometimes by region. So the drivers that we've identified 
in certain areas of Tunisia include the unemployment, the 
disaffected population, including youth, some of the people not 
happy with the pace of reforms, people not happy with how their 
government is including them.
    And so if you look at some of the programs, we are trying 
to target to address these, they include creating transparent 
and accountable local governments so people can--citizens can 
feel like they are a part of that. And so the employment is 
part of the solution as well as the citizen engagement. That is 
one way to address the specific drivers. There is a security 
aspect to it too.
    Mr. Desrocher. Yeah. I will just note, just add that I 
think that covers it very well but on the security aspect the 
Tunisians are taking measures to bolster the security along 
their border with Libya, which we are helping them with. There 
are ties to go back between Libya and Tunisia that go back 
quite some time in relationships and communications that go 
back quite some time and poses a special challenge, but the 
Tunisians are working hard, to in much of the way that that 
Maria discussed, in trying to find ways to identify those who 
might be tempted by these ideologies and detect people before 
they head for the airport, before they head across the border 
and to try to set up the systems that are in place at the 
borders to prevent these people from leaving.
    But it is a serious challenge and it is going to take a 
long-term solution.
    Mr. Boyle. I will just say finally I get the impression, 
and correct me if I am wrong, but it seems as if you are both 
on the more optimistic realm of the spectrum if I were to 
characterize your comments. Would that be fair in terms of what 
the Tunisian Government is doing right now in the steps that 
they are taking?
    Ms. Longi. I am optimistic. The engagement that we have, if 
you just look and the economics here, the engagement from 
minister level to working level on really truly being committed 
to creating jobs, and improving the business environment and, 
to getting youth engaged in a constructive way, it is positive.
    Mr. Desrocher. I would definitely second that. I am 
optimistic because of the record that the Tunisians have built 
up over the past few years. They are pursuing the kinds of 
reforms that Maria described that they need to pursue. And 
these are not easy things to do but they are pursuing them 
despite the difficulty.
    Mr. Boyle. Thank you.
    Ms. Ros-Lehtinen. Thank you very much.
    Does any member wish to have another round? Thank you so 
much.
    Thank you for presenting a very realistic and hopeful 
outlook for our great partner Tunisia. Having been there also, 
I wish I would have been in Ms. Frankel's CODEL, but we went on 
our own and it was sad to see beautiful hotels empty.
    We hope that folks come back to the beauty of Tunisia. 
Thank you so much.
    And with that, the subcommittee is adjourned.
    [Whereupon, at 3:37 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
